                                  AUDIT OF SBA’S UNIX

                                  OPERATING SYSTEMS

                             AUDIT REPORT NUMBER 1-21

                                   SEPTEMBER 28, 2001




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416


                                                                    AUDIT REPORT
                                                             Issue Date: September 28, 2001
                                                             Number: 1-21


To:            Lawrence E. Barrett, Chief Information Officer




Subject:       Audit of SBA’s UNIX Operating Systems

        We completed an audit of the Sun Solaris UNIX computer operating systems on [FOIA
Ex. 2] servers that host SBA’s client/server1 computer applications. We concluded that security
over the UNIX servers was not adequate to protect or detect unauthorized access to Agency
programs or data. During our audit, the OCIO corrected many of the configuration and access
control issues. Our recommendations are focused on correcting those issues that remain to
ensure the security over the UNIX operating systems.


                                        BACKGROUND

       SBA’s Office of the Chief Information Officer (OCIO) has [Ex. 2] servers with UNIX
operating systems that operate [FOIA Ex. 2] client/server based computer applications. The
applications include the Surety Bond Guarantee/Preferred Surety Bond System, Field Cashiering
System and Asset Sales System. [FOIA Ex. 2].

       When configured properly, the UNIX operating system can protect data and programs
from unauthorized use. This is done primarily by requiring users to authenticate themselves

1
 Client/server is defined by TechWeb encyclopedia as a computer architecture in which the
user's PC (the client) is the requesting computer and the server is the supplying computer, both of
which are connected via a local area network or wide area network. In client/server, the client
processes the user interface (Windows, Mac, etc.) and can perform some or all of the application
processing. Servers range in capacity from high-end PCs to mainframes. A database server
maintains the databases and processes requests from the client to extract data from or to update
the database. An application server provides additional business processing for the clients.
when logging on with both a user identifier (user ID) and a password. After recognizing a user,
UNIX restricts the user’s access to data and programs according to permission previously
granted by owners of the data and programs. UNIX has a “superuser” account that, by
convention, has the username “root.” This account has unrestricted access to the entire system,
including all data and all programs. Access to root is controlled by a password that must be
carefully protected in order to secure data and programs from unauthorized access, use,
alteration, or destruction.


                      OBJECTIVES, SCOPE AND METHODOLOGY

       The objectives of the audit were to determine whether the security settings and
operational controls for the UNIX operating systems were adequate to prevent or detect
unauthorized access to programs and data. We also assessed compliance with applicable
provisions of OMB Circular A-130, Appendix III, “Management of Federal Information
Resources,” and SBA’s Standard Operating Procedure (SOP) 90-47, “Automated Information
Systems Security.”

        The scope of the audit was the 13 UNIX servers that provide the development, test and
production environments for SBA’s client/server applications. The [Ex. 2] UNIX servers that
are dedicated to the operation of web server software were not within the scope of this audit. We
ran diagnostic and security programs on the UNIX servers and interviewed appropriate SBA
personnel at SBA’s Central Office in Washington, DC between December 2000 and March
2001. We performed our audit in accordance with Government Auditing Standards.


                                      AUDIT RESULTS

        We concluded that the security settings and operational controls over the UNIX operating
systems were not adequate to prevent or detect unauthorized access to programs and data, and
did not comply with Federal and Agency information security requirements in OMB Circular A-
130 and SBA SOP 90-47. As a result, there was an increased risk of unauthorized modification,
loss and disclosure of data and programs. This risk is somewhat mitigated due to the fact that
there are only about 45 authorized users who can log into the UNIX operating system directly.
Additionally, the OCIO corrected many of the configuration and access control issues during the
audit. Our recommendations are focused on correcting those issues that remain to ensure the
security over the UNIX operating systems.


Finding 1: Identification And Authentication Controls Were Not Adequate To Prevent Or
           Detect Unauthorized Access

        Identification and authentication controls (user IDs and passwords) were not properly
implemented to prevent or detect unauthorized access to the UNIX operating systems. This
occurred because OCIO had not coordinated the overall installation and configuration of the
servers to ensure they posed no security risk. Additionally, the UNIX computer operator who



                                               2
had operational security responsibilities was not trained in and aware of Agency security
requirements. As a result, there was increased risk of unauthorized activities occurring and not
being detected.

        OMB Circular A-130 requires that agencies ensure that information is protected
commensurate with the risk and magnitude of the harm that would result from the loss, misuse,
or unauthorized access to or modification of such information. In addition, SOP 90-47 requires
that operating system software contain adequate security controls to minimize the likelihood of
unauthorized access to or use of system resources. The SOP further requires the OCIO to
coordinate the installation and configuration of the system(s) to ensure that they pose no security
risk.

        The specific aspects of non-conformance with OMB Circular A-130 and SOP 90-47 for
identification and authentication controls are noted below.

The password for the root ID had not been changed in the appropriate timeframe

         The password for the root ID had not been changed in five months. During that time, two
individuals who knew the password for the root ID had retired. Additionally, both of these
individuals had active accounts on the firewall and could dial into the UNIX systems remotely.
This occurred because the UNIX administrator was not aware of the Agency security
requirements in the SOP including the requirement to change the password for the root ID. As a
result, unauthorized accesses could have occurred and gone undetected.

         SOP 90-47 requires that passwords for root IDs on UNIX operating systems be changed
at least once every two months. Passwords should be changed more frequently as conditions
warrant.

       During the audit, the UNIX computer operator changed the password for root and agreed
to change it every two months, or more frequently as conditions warrant.

Some passwords were blank or easily guessed

        Using a password “cracker” freely available on the Internet, we identified 57 passwords
being utilized by 26 user IDs that did not comply with SBA security requirements for password
length and complexity. As a result, a user could more easily masquerade as someone else and
make unauthorized changes to SBA client/server applications.

        SOP 90-47 requires that passwords must be at least eight characters in length, not be
easily guessed combinations, e.g., all zeros, dashes, etc, and not be the same as the user ID.

       Some of the inappropriate passwords we identified were as follows:

       •    Thirty-two passwords were substantially the names of the products or utilities
            supported by the users of those products, e.g., [FOIA Ex. 2]




                                                 3
       •    Eleven passwords were the initial password given to the user. Those passwords had
            not been changed.

       •    Four passwords were blank. Any individual who knew the user ID for those four
            accounts could have signed on to the systems as those IDs.

       •    Ten passwords did not comply with agency regulations regarding password length
            and complexity.

Numerous user IDs were for personnel who were not currently employed

       Thirteen of the 60 existing user IDs were for personnel who were no longer SBA
employees or contractors. Six of these 13 IDs had active accounts on the SBA firewall and could
be used to dial into the UNIX servers remotely. As a result, there is no guarantee that these IDs
were not used for an inappropriate purpose. Additionally, there is no ability to ascertain if other
individuals accessed the programs and capabilities of the departed employees or contractors and
made unauthorized changes to programs or data.

        SOP 90-47 requires that accounts will be suspended as quickly as possible, but no more
than three working days from the time the user is no longer authorized access to the computer
installation or computer application.

       During the audit, all non-current user IDs were suspended in UNIX and on the firewall as
soon as it was determined that these IDs were for individuals who no longer worked for SBA.

Automated password controls were not enabled within UNIX

        Automated controls within UNIX over password settings were not enabled to ensure
security and integrity of the operating system. This occurred because the UNIX operator had not
activated the UNIX Administrative Tool features that would enforce password change
requirements and user ID suspension called for in SBA SOP 90-47. Additionally, the OCIO had
not ensured that the controls called for in the SOP would be included in the system
configuration. As a result, aspects of the previous two security weaknesses, easily guessed
passwords and user IDs existing for non-current SBA personnel, were not automatically
corrected within the system.

         SOP 90-47 specifies the following controls relating to password administration: (1) the
initial password or a reissued password will be replaced and not reissued, (2) users must be able
to change their own passwords and passwords must be set to automatically expire every 90 days,
and (3) inactive accounts must be suspended after 120 days of inactivity.

        During the audit, the computer operator tested the UNIX Administrative Tool features
with his own ID and found that the warning message that a password was about to expire did not




                                                4
work with the agency’s client front-end security software.2 Therefore, the system would not
warn users that their passwords were about to expire. Procedures should, therefore, be
developed to notify users that their passwords are about to expire at the 90-day interval as
required by SOP 90-47.

Recommendations:

         We recommend that the Chief Information Officer:

1A.      Ensure that the UNIX computer operators who have operational responsibility for
         maintaining security for the UNIX systems are trained in agency computer security
         requirements.

1B.      Ensure that the password for the root ID is changed every two months or more frequently
         as circumstances warrant.

1C.      Adopt password maintenance procedures to ensure that the initially assigned passwords
         for the UNIX systems are changed within a reasonable time frame (three to five
         workdays) and suspend IDs that are not initially used within 5 days.

1D.      Enable security features within the UNIX Administrative Tools to comply with SOP
         90-47 regarding forcing the expiration of passwords every 90 days and forcing inactive
         accounts to be suspended after 120 days of inactivity.

1E.      Develop procedures to monitor passwords for SBA general support systems on a periodic
         basis to ensure compliance with SOP 90-47.

1F.      Establish procedures to review the access control lists for the UNIX systems and the
         firewall and purge the systems of user IDs that are no longer needed.

SBA Management’s Response:

         The Chief Information Officer agreed with the finding and recommendations.


Finding 2: Remote Login Was Enabled On the Main UNIX Server Making It Easier To
           Penetrate The System

        Enabling the remote login setting (rlogin) within UNIX allowed access to the main UNIX
server by means other than approved front-end software. As a result, potential unauthorized
access to the server could occur and go undetected.



2
  The approved client front-end security software (1) prevents direct login to the system with the Root ID, (2) limits
the number of unsuccessful login attempts, and (3) encrypts communications between the client and server
computers.


                                                          5
         SBA SOP 90-47 requires that users access client servers through client, front-end
software provided and approved by the OCIO. Other access methods are prohibited. When
enabled, remote login allows for access to the server without using the client, front-end software
approved by the OCIO. When remote login was made known to the UNIX computer operator,
the setting was immediately disabled.

Recommendation:

2A.    We recommend that the Chief Information Officer periodically review the appropriate
       UNIX configuration files and ensure that sensitive system privileges and capabilities are
       set to SBA approved settings for all UNIX servers.

SBA Management’s Response:

       The Chief Information Officer agreed with the finding and recommendation.


Finding 3: The UNIX Servers Did Not Have Appropriate Management Controls as
           Prescribed for General Support Systems

        The UNIX servers processing client/server applications did not have an adequate security
plan, an individual formally assigned security duties and authorization to process information as
prescribed for general support systems as per OMB Circular A-130. As a result, the UNIX
servers did not have the underlying security foundation work needed to identify the security
weaknesses that had been noted in this report.

        SBA had included the UNIX Servers in a different security plan and accreditation
package. The other security plan covered other SBA systems, but did not address the major
applications that process on the UNIX servers, nor the protection and security requirements for
the 40 plus users of the system. The security plan also did not specifically designate the
responsible security official for the UNIX servers. Since the UNIX servers processing
client/server applications are a separate general support system, there was not a correct
authorization to process information on the UNIX servers.

Recommendations:

       We recommend that the Chief Information Officer:

3A.    Create the required security plan and documentation for the UNIX servers as separate
       general support systems processing major applications.

3B.    Formally assign security duties for the UNIX systems to an appropriate individual.

3C.    Approve or authorize the UNIX systems to operate as separate general support systems
       processing major applications.




                                                6
SBA Management’s Response:

       The Chief Information Officer agreed with the finding and recommendations.


Finding 4: UNIX Operating System Patches Were Not Up-To-Date

       The UNIX servers had not been kept up-to-date with the latest security patches and
recommended configuration settings as provided by the manufacturer. As a result, the servers
may have been more vulnerable than what would have occurred if the systems had been patched
as recommended by the manufacturer.

       OMB Circular A-130 provides that "adequate security" means security commensurate
with the risk and magnitude of the harm resulting from the loss, misuse, or unauthorized access
to or modification of information. This includes assuring that systems and applications used by
the agency operate effectively and provide appropriate confidentiality, integrity, and availability,
through the use of cost-effective management, personnel, operational, and technical controls.
Since Sun Solaris UNIX patches come free with the systems, implementing these patches
provides cost-effective security products and techniques.

        During the audit, a program from the manufacturer was run that analyzed the current
patch level on three of the [Ex. 2] UNIX platforms. The tool identified many security and
operational patches that had not been installed. According to computer operator staff, this was
due to the philosophy that patches would be installed only if there was a compelling need for
them (security or issues that directly affected the applications and [Ex. 2]. As the audit
progressed, the computer operator updated one of the test environments with the manufacturers
recommended “bundle patch” (a collection of all current patches for the system). The bundle
patch had not encountered any problems in the test environment and the computer operator was
awaiting approval to install the bundle patch on the remaining servers.

        During the audit, a program from the manufacturer was also run that determined whether
certain system configuration settings were optimized for secure operations. The manufacturer
had identified potential weaknesses to the default settings for UNIX and recommended installing
a program to update the operating system each time the system is restarted. As the audit
progressed, the UNIX computer operator modified the operating system to update the system
configuration file on all [Ex. 2] UNIX servers during system restarts.

Recommendation:

4A.    We recommend that the Chief Information Officer review the UNIX servers and
       implement appropriate patches on all servers. Additionally, we recommend that in the
       future OCIO develop procedures to review the servers and verify that all appropriate
       patches are timely installed.




                                                 7
SBA Management’s Response:

        The Chief Information Officer agreed that security patches for the [Ex. 2] servers were
not always up to date. He was concerned, however, that implementing a bundle patch on the
UNIX servers could cause unintended consequences to the operational environments. Certain
patches may not work correctly with SBA installed programs or utilities. The CIO agreed to
review the current patch configuration for the UNIX servers to ensure that all necessary patches
are currently installed. Additionally, the OCIO will develop procedures to periodically review
the patch configuration levels to ensure that all future patches are timely installed on SBA
systems.

OIG Evaluation of Management’s Response:

      We agree with the Chief Information Officer’s comments and have modified the
recommendation accordingly.


Finding 5:     Monitoring “Switch-user” Logs

        UNIX has a switch-user command (SU) that allows a user, who is logged on to the
system, to log in again under another ID (account). When outside of the console room, secure
front-end software is configured to require logging (recording) of user attempts to switch-user.
Thus all logins through the switch-user command are recorded (logged) in a switch-user file.
This file (log) should be reviewed periodically by appropriate personnel to identify unauthorized
user attempts to switch to root or other highly privileged user IDs.

        The groups at OCIO that should have monitored the switch-user logs for suspicious
behavior did not review those logs and validate appropriate login attempts. This occurred
because the logs for the command were periodically monitored by the UNIX computer operators,
but not shared with the DBMS programming group and the OCIO Security group. As a result,
there was no oversight by the groups who would be most interested in users logging into the
servers with IDs that those individuals were not authorized to use.

Recommendation:

5A.    We recommend that the Chief Information Officer create copies of the switch-user logs
       and have those logs reviewed weekly by the DBMS Team Leader and the OCIO Security
       group. The DBMS Team Leader and OCIO Security should review and validate the
       appropriateness of the logins using the switch-user logs.

SBA Management’s Response:

       The Chief Information Officer agreed with the finding and recommendation.


                                             ***

                                                8
       The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing Agency
procedures for audit follow-up and resolution.

        Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       This report may contain proprietary information subject to the provisions of
18 USC 1905. Do not release to the public or another agency without permission of the Office
of Inspector General.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.

Attachment




                                               9
                                                                                                                        Attachment 1


                                                 REPORT DISTRIBUTION



Recipient                                                                                         Number of Copies

Associate Deputy Administrator for Management and Administration ........................ 1

General Counsel ............................................................................................................ 2

General Accounting Office ............................................................................................ 1

Chief Financial Officer ................................................................................................. 1
Attention: Jeff Brown
